           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  PROBATION OR PAROLE VIOLATORS
    SERVING AS REPRESENTATIVE
             PAYEES

      August 2009   A-01-09-29112




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   August 19, 2009                                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Probation or Parole Violators Serving as Representative Payees (A-01-09-29112)



        OBJECTIVE

        Our objective was to quantify the benefits received by representative payees who were
        probation or parole violators.

        BACKGROUND
        Some individuals cannot manage their finances because of their youth, mental and/or
        physical impairments. Consequently, Congress granted the Social Security
        Administration (SSA) the authority to appoint representative payees to receive and
        manage these individuals’ Social Security benefit payments. 1

        The decision to make payments through a representative payee is serious since it
        deprives a beneficiary of direct control over personal finances and may affect the
        beneficiary’s manner of living. In recognizing the potential for a representative payee to
        mishandle benefits, Congress requires that SSA exercise care in determining that a
        representative payee is needed, selecting a representative payee, and monitoring a
        representative payee’s performance.

        Deciding whether a person would be a good payee is an important decision, one that
        may greatly affect a beneficiary's quality of life. When an individual requests to be
        selected as payee, the Agency must use all available information to determine who can
        act on behalf of the beneficiary. For example, SSA uses information reported on the
        payee application, the applicant's relationship to the beneficiary, whether the applicant
        has custody of the beneficiary, and information about the applicant's past payee
        performance and criminal history when making this decision.


        1
          Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2). A representative
        payee is a person or organization selected by SSA to receive and manage benefits on behalf of an
        incapable beneficiary. Payees are responsible for using Social Security benefits to serve the
        beneficiary’s best interests.
Page 2 - The Commissioner

While conducting our audit, Fugitive Felons Serving as Representative Payees, 2 we
identified two issues with probation or parole violators serving as representative payees.

      (1) While the Social Security Protection Act of 2004 (Pub. L. No. 108-203), which
          took effect in April 2005, contains a provision that disqualifies probation or parole
          violators from serving as representative payees for Title XVI recipients, 3 there is
          no similar provision for Title II beneficiaries.

      (2) SSA does not identify probation or parole violators who serve as payees for
          Title II or XVI beneficiaries. 4 The matching agreement SSA has with law
          enforcement agencies only covers the identification of fugitive felons who are
          representative payees and not probation or parole violators who are
          representative payees. Article I section A(2) of the computer matching
          agreement states that the purpose of the match is to “…identify individuals who
          are fugitive felons...and who are also serving as representative payees...."

We undertook this review to quantify the amount of Title II and XVI funds being paid
through certain representative payees who were identified as probation or parole
violators.

METHODOLOGY

To conduct our review, we obtained a file of fugitive records from our Office of
Investigations and identified 2,904 individuals who had warrants for violating a condition
of probation or parole and were serving as representative payees. We randomly
selected 50 of the records for detailed review. (See Appendix B for details about our
scope and methodology.)

RESULTS OF REVIEW
Based on our sample, we estimate that between April 2005 and January 2009, about
$26.9 million in Social Security funds was paid to about 1,800 probation or parole
violators who were serving as representative payees. These payees received benefits




2
    Fugitive Felons Serving as Representative Payees (A-01-08-18021), March 2009.
3
 Pub. L. No. 108-203 § 103(c)(3)(C). See also Social Security Act § 1631(a)(2)(B)(iii)(V), and
1611(e)(4)(A)(ii), 42 U.S.C. § 1383(a)(2)(B)(iii)(V), and 1382(e)(4)(A)(ii).
4
    SSA, Program Operations Manual System (POMS), GN 00502.132 B.2.b.
Page 3 - The Commissioner

for about 2,439 beneficiaries. 5 Of the $26.9 million, probation/parole violators serving
as payees received approximately
         $18.9 million in Title XVI payments and
         $8.0 million in Title II benefits.

Therefore, SSA was not complying with the Social Security Act requirement to prohibit
probation or parole violators from serving as representative payees for Title XVI
recipients.

SOCIAL SECURITY ACT REQUIREMENTS

SSA provided the following information with regard to the changes to the Social Security
Act that gave rise to the prohibition of probation and parole violators from serving as
representative payees for Title XVI recipients.

The Social Security Protection Act of 2004—which amended the Social Security Act by
adding a provision that disqualified probation or parole violators from serving as
representative payees for Title XVI recipients (but not Title II beneficiaries)—began as
bill H.R. 743. The original version of that bill prohibited fugitive felons, but not probation
or parole violators, from serving as representative payees under both Titles II and XVI.
H.R. 743 accomplished the prohibition against fugitive felon representative payees in
Title XVI by cross-referencing existing § 1611(e)(4)(A) of the Social Security Act, which
prohibited eligibility for Title XVI payments for fugitive felons. 6 It accomplished the
prohibition against fugitive felon representative payees in Title II by cross-referencing
the new provision in § 202(x)(1)(A)(iv) 7 prohibiting entitlement to Title II benefits for
fugitive felons.

Upon its review of the bill, the Senate added an amendment to existing § 1611(e)(4)(A)
of the Social Security Act to remove and replace out-dated language regarding "high
misdemeanors" in the State of New Jersey. In amending the language, the Senate
restructured § 1611(e)(4), placing the prohibition on eligibility for fugitive felons in
§ 1611(e)(4)(A)(i) and placing the prohibition on eligibility for probation and parole
violators in § 1611(e)(4)(A)(ii). The Senate did not go back to § 1631(a)(2)(B)(iii)(V) and
change the cross-reference from § 1611(e)(4)(A) to § 1611(e)(4)(A)(i).

SSA asserts that the restructuring of § 1611(e)(4)(A) had the unintended consequence
of prohibiting probation and parole violators from serving as representative payees for
5
  We estimate 697 probation and parole violators were still serving as representative payees as of
January 2009 for 929 beneficiaries. Further, we estimate that about $4.1 million in Title II and XVI funds
will be paid to these probation and parole violators over the next 12 months if they continue to be payees
for others.
6
  Section 1611(e)(4)(B) of the original version of H.R. 743 contained the prohibition on entitlement for
Title II benefits for probation and parole violators.
7
    This new prohibition was added by section 203(a) of the Social Security Protection Act of 2004.
Page 4 - The Commissioner

Title XVI recipients. Additionally, SSA asserts that the purpose of the Senate's
amendment to § 1611(e)(4) had nothing to do with representative payees. Also, the
Title II and XVI representative payee provisions are generally parallel because there is
no reason to have different rules for representative payees who serve Title II
beneficiaries and representative payees who serve Title XVI recipients.

According to SSA, the legislative history indicates that the Title XVI statutory provision
prohibiting probation and parole violators from serving as representative payees was a
drafting error. However, based on our review of Senate Report 108-176 on § 103 of the
Social Security Protection Act, it seems clear that Congress intended to prohibit
probation or parole violators from serving as representative payees. The Report states
“The new provision expands the scope of disqualification to prohibit an individual from
serving as a representative payee if he or she: … (3) violated a condition of probation or
parole.”

SAMPLE RESULTS

We sampled 50 individuals who had warrants for violating a condition of probation or
parole and who served as representative payees. We found that:
       31 (62 percent) were representative payees for 42 beneficiaries and received
        $462,744 while they had outstanding warrants for violating a condition of
        probation or parole. Of the $462,744 paid to the payees for beneficiaries in their
        care, $325,285 were Title XVI funds and $137,459 were Title II funds. 8
       19 (38 percent) were not representative payees with active warrants for probation
        or parole violations. 9

Benefits Received by Probation or Parole Violators Serving as Payees

Our sample contained 31 payees who had received $462,744 in benefits even though
they had outstanding warrants for violations of probation or parole. Of those 31, 19 had
satisfied their warrants or were no longer serving as representative payees before the
start of our audit; and the remaining 12 payees still had active warrants for a probation
or parole violation. As of January 2009:
       15 representative payees had satisfied their warrants. Before satisfying their
        warrants, these 15 representative payees received $145,992 on behalf of
        21 beneficiaries over an average of 14 months while their warrants were still
        outstanding. Of the $145,992 received by these payees, $79,189 was for
        Title XVI payments and $66,803 was for Title II benefits.


8
 The 42 beneficiaries were comprised of 27 Title II beneficiaries, 13 Title XVI recipients, and
2 beneficiaries who received both Title II and XVI benefits concurrently.
9
 For example, in some cases, the payees satisfied their warrants within 30 days; and in other cases, the
warrants were satisfied before the individuals were selected as payees.
Page 5 - The Commissioner

        four probation or parole violators were no longer representative payees because
         (a) the beneficiaries were no longer entitled to benefits; (b) more suitable payees
         were selected; or (c) there was a custody change. These four representative
         payees received $69,776 on behalf of five beneficiaries over an average of
         2 years while their warrants were still outstanding. Of the $69,776 these payees
         received, $61,445 was for Title XVI payments and $8,331 was for Title II benefits.
        12 representative payees still had outstanding probation or parole violation
         warrants at the time of our audit. These 12 representative payees received
         $246,976 on behalf of 16 beneficiaries over an average of 3 years. Of the
         $246,976 received by these payees, $184,651 was for Title XVI payments and
         $62,325 for Title II benefits. Additionally, if these individuals continue to serve as
         payees and their probation or parole violation warrants continue to remain
         outstanding, they will receive about $70,181 over the next 12 months.

Table 1 shows the type of benefits received by the 31 representative payees we
identified as probation or parole violators.

                                                 Table 1
                                                                   Number of
                     Type of Benefits Received by
                                                                 Representative
                        Representative Payees
                                                                    Payees
                        Title II Only                                   18
                        Title XVI Only                                  11
                        Title II and Title XVI 10                        2
                        Total                                           31

For example, a representative payee in our sample had a warrant issued in
March 2000, and this warrant remained outstanding until December 2008. This
probation violator was serving as payee for her two children, who were both receiving
Title XVI disability payments for mental disorders. From April 2005 through
December 2008, she received a total of $53,609 in Title XVI payments. Additionally,
she has a criminal history of committing such offenses as theft, aggravated assault, and
aggravated assault with a deadly weapon. Therefore, it appears this individual might
not be the most suitable payee for her children.




10
  For one of these individuals, the probation violator was a payee for a beneficiary who received Title II
benefits only and another beneficiary who received both Title II and XVI benefits; therefore, we only
counted this payee once in this category.
Page 6 - The Commissioner

Types of Representative Payees and Beneficiaries

Of the 42 individuals whose benefits were received by probation or parole violators,
15 were adults and 27 were children under the age of 18. Table 2 shows the
relationship between the probation or parole violator and the beneficiaries.

                                      Table 2
                  Relationship of Representative           Number of
                       Payee to Beneficiary               Beneficiaries
                             Mother                            27
                             Father                            14
                             Other                               1
                             Total                             42

In one case, a mother was a representative payee for her 17-year-old daughter, who
was receiving Title II benefits. A warrant for this payee was issued in October 2006 for
violating a condition of probation, and the warrant remained open until August 2007.
From November 2006 through August 2007, this payee received $1,780 in Title II
benefits on behalf of her daughter; however, the payee’s own benefits were suspended
because of her probation violation warrant. Additionally, this representative payee had
a criminal history, which included such offenses as financial card fraud, assault and
battery, and possession of cocaine. Therefore, it appears that despite the payee being
the beneficiary’s mother, she may not be the most suitable person to serve as
representative payee.

Although, the Social Security Protection Act of 2004 does not contain a provision
disqualifying probation or parole violators from serving as representative payees for
Title II beneficiaries and the computer-matching agreement does not allow SSA to
identify probation or parole violators serving as payees, a probation or parole violator
may not be in the best position to serve as a representative payee.

Payees Whose Benefits Were Suspended Because of Their Warrant for Violating a
Condition of Probation or Parole

Of the 31 probation or parole violators we identified as serving as representative
payees, 14 had their own benefits suspended because of their warrant for violating a
condition of probation or parole.

For example, one representative payee had her own benefits suspended because of a
warrant for violating a condition of probation; however, she was still selected in
January 2006 to serve as a representative payee for her 17-year-old son who was
diagnosed with mental retardation and was receiving Title XVI payments. As of
January 2009, the payee’s warrant was still outstanding and she received a total of
$22,894 from February 2006 through January 2009. If this individual continues to serve
as payee, she will receive about $7,900 in Title XVI payments over the next 12 months.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA was not complying with the Social Security Act requirement to prohibit probation or
parole violators from serving as representative payees for Title XVI recipients. We
estimate that from April 2005 through January 2009, about $18.9 million in Title XVI
funds were paid to representative payees who were probation or parole violators. As a
best practice and to comply with the Social Security Act, SSA should screen
representative payees against probation or parole violator data and use the results in
assessing a payee’s suitability.

Therefore, we recommend SSA:

 1. Work with Congress to update the Social Security Act so there is consistency in the
    law between probation or parole violators serving as representative payees for
    Title II and XVI beneficiaries.

 2. Update its computer-matching agreement to allow SSA to identify probation or
    parole violators who are serving as representative payees and to use this
    information in determining whether a payee is suitable.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.


                                           S
                                           Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms

POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
U.S.C.        United States Code
                                                                                 Appendix B

Scope, Methodology and Sample Results
To accomplish our objective, we:
        Researched the Social Security Act and the Social Security Administration’s
         (SSA) regulations, policies, and procedures related to probation or parole
         violators and representative payees.

        Obtained a file of fugitive felon and probation or parole violator records as of
         June 2007 from our Office of Investigations. Through computer analysis, we
         identified 2,904 individuals with warrants for violating a condition of probation or
         parole, and were representative payees for Title II and XVI beneficiaries as of
         July 2007. We randomly selected 50 individuals from this population for detailed
         analysis. Specifically, we

            o calculated the funds received by the probation or parole violators while
              serving as representative payees;

            o calculated the funds the probation or parole violators will receive if they
              continue to serve as representative payees;

            o determined whether the probation or parole violator was still a
              representative payee as of January 2009; and

            o researched Lexis/Nexis for criminal history information. 11

        Consulted with SSA’s Office of General Counsel and our Office of the Counsel to
         the Inspector General concerning probation and parole violators.

We conducted our audit in Boston, Massachusetts, between April and May 2009. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our objective. The entity audited was the Office of the Deputy Commissioner for
Retirement and Disability Policy.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.


11
  We did not contact any beneficiaries to determine whether the payees were using the Social Security
funds to meet their needs (food, clothing, shelter, and medical care).


                                                 B-1
SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

                         Table B-1: Population and Sample Size
                         Population Size                     2,904
                         Sample Size                            50

PROBATION OR PAROLE VIOLATORS SERVING AS REPRESENTATIVE PAYEES

Table B-2: Benefits Received by Probation or                        Title XVI             Title II
Parole Violators Who Served as Representative
Payees                                                             Payments              Benefits
Sample Results                                                     $325,285              $137,459
Point Estimate                                                   $18,892,557            $7,983,589
Projection Lower Limit                                            $9,855,042            $3,999,194
Projection Upper Limit                                           $27,930,073           $11,967,984
Note: All projections are at the 90-percent confidence level.

                                             Number of
Table B-3: Probation or Parole
                                            Probation or          Number of
Violators Who Served as                                                                Total Dollars
                                               Parole            Beneficiaries
Representative Payees
                                             Violators
Sample Results                                      31                  42                $462,744
Point Estimate                                   1,800                                 $26,876,147
Projection Lower Limit                           1,438                                 $17,407,552
Projection Upper Limit                           2,131                                 $36,344,741
Note: All projections are at the 90-percent confidence level.

To estimate the number of beneficiaries, we conducted the following ratio analysis:
42 beneficiaries divided by 31 probation or parole violators equals 1.3548. Multiplying
1.3548 by 1,800 point estimate equals an estimate of 2,439 beneficiaries who had their
funds received by probation or parole violators.

            Table B-4: Probation or Parole                  Number of
            Violators Who Continue to Serve as              Probation         Number of
            Representative Payees as of                     or Parole        Beneficiaries
            January 2009                                    Violators
            Sample Results                                       12               16
            Point Estimate                                      697
            Projection Lower Limit                              423
            Projection Upper Limit                            1,041
            Note: All projections are at the 90-percent confidence level.




                                                   B-2
To estimate the number of beneficiaries, we conducted the following ratio analysis:
16 beneficiaries divided by 12 probation or parole violators equals 1.3333. Multiplying
1.3333 by 697 point estimate equals an estimate of 929 beneficiaries who had their
funds received by probation or parole violators and still need the payee replaced.

Funds Received over the Next 12 Months by Payees Who Have Outstanding
Warrants for a Violation of Probation or Parole as of January 2009

Within our sample, 12 probation or parole violators will receive about $70,182 (or, an
average of $5,848) in funds over the next 12 months if not replaced as payees.
Therefore, we estimate that approximately $4,076,164 will be received by about
697 probation or parole violators (from Table B-4) over the next 12 months if not
replaced with new payees.




                                           B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 10, 2009                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel    /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Probation or Parole Violators Serving as
           Representative Payees” (A-01-09-29112)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report. Our response to the report
           findings and recommendations is attached.

           Please let me know if we can be of further assistance. Staff may direct inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“PROBATION OR PAROLE VIOLATORS SERVING AS REPRESENTATIVE PAYEES”
(A-01-09-29112)

We have reviewed the draft report and agree with the report’s contents and its findings. Our
responses to the specific recommendations are provided below.

Recommendation 1

Work with Congress to update the Social Security Act so there is consistency in the law between
probation or parole violators serving as representative payees (Rep Payee) for Title II and
Title XVI beneficiaries.

Comment

We agree. We recognize the inconsistency in the law that prohibits probation and parole
violators from serving as Rep Payees for Title XVI beneficiaries, but allows them to serve as
Rep Payees for Title II beneficiaries. We will consider a legislative proposal in the next
legislative cycle to resolve the inconsistency.

Recommendation 2

Update the computer-matching agreement to identify probation or parole violators who are
serving as Rep Payees and use the information in determining whether a Rep Payee is suitable.

Comment

We agree. In January 2010, we expect to start the negotiations to update the computer matching
agreement so we can begin processing the appropriate parole and probation information. We
will take the steps necessary to use this information to ensure that we accurately assess the
suitability of Rep Payees.




                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

Acknowledgments

In addition to the name above:

   Frank Salamone, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-29112.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
